                                 CLOSEOUT FOR M-95040015

    On 17 April 1995 in a letter addressed to an NSF program officer,' OIG received allegations
    of misconduct in science2 against two subjects3 OIG considered the following allegations
    against the subjects.   m,     it was alleged that the subjects surveyed and worked in a
    geographic area (the contested area) in which another research group had received exclusive
    permission from a foreign government4to work and that, in so doing, the subjects' group
    infringed on the other research group's officially permitted work project. Second, it was
    alleged that the subjects had altered their study area in their successive permit applications to
    the foreign government in order to expand their study into the contested area. As part of this
    allegation, OIG considered whether the subjects had misrepresented their permitted work
    areas in their NSF proposals.' Third, it was alleged that the subjects' group's sampling in the
    contested area was destructive. Fourth, it was also alleged that the subjects' work in the
    contested area a g e d on a graduate student's research project and, possibly, his scientific
\




    career.

    The subjects informed OIG of numerous other allegations against them that were indirectly
    associated with the above allegations. The evidence provided by the subjects, or gathered by
    OIG, permitted the following resolutions of these additional allegations. These allegations
    either: 1) were not within NSF's jurisdiction, such as the subjects' alleged financial gain
    resulting from various publications, or their group's failure to share information in the most
    beneficial manner; or 2) had insufficient substance to pursue, such as the alleged theft of
    items by some of the subjects' group members, sale of items by the subjects for their own
    financial gain, inappropriate preventative health procedures for a worker in the subjects'
    group, slow information exchange, failure to include certain .individuals as authors on a
    paper, or failure to acknowledge other investigators' work in a paper.

    OIG reviewed the subjects' NSF proposals, interviewed subject 1, and requested information
    from the two subjects and the members of the other research group.




                                              page 1 of 3                                  M 95-15
                            CLOSEOUT FOR M-95040015

Allegation #1: The subjects' group allegedly surveyed and worked in the contested area in
which the other research group had received exclusive permission to work from the foreign
government. The subjects stated that they had sampled and conducted surveys in this
contested area. The subjects and the other research group supplied documentation to support
their statements that they had each applied for official permission to survey and work in the
contested area. The subjects also provided documentation that they had applied to conduct
surveys outside their permitted area when that territory was not included as part of their
requested work area. The subjects and the other research group provided evidence that their
permit applications had been approved by the foreign government. However, these
authorizations generally did not specify precisely the field areas or the research studies that
had been approved.

OIG learned that: 1) the other research group and the subjects specified complementary and,
at times, similar projects in their permit applications; 2) the project descriptions in these
permit applications were, at times, ambiguous because of the use of overlapping terminology;
and 3) the other research group and the subjects did not always employ the same procedures
to obtain official permission to work in the contested area. Consequently, OIG determined
that a definitive resolution of the other research group's claim that they had exclusive
permission to work in the contested area was not possible. Further, given the foreign
government's method of approval of permit applications, it was not possible to resolve what
permission had been granted to either group to conduct research in the contested area.

OIG was informed that, when the foreign government learned of the disagreement between
the subjects' group and the other group over which had the right to work in the contested
area, it initially warned the subjects to stay within their permitted area. The foreign
government later withdrew permission for the subjects' group to work in its permitted area.
At the time this closeout was prepared, the foreign government had still not given the
subjects' group permission to resume its research work in the area. OIG concluded that the
permit documents indicated that both groups arguably had been given permission to work in
the contested area and that there was insufficient substance to pursue the allegation that the
subjects' group sampled and surveyed in the contested area without official permission.

Allegation #2: The subjects allegedly had altered their study area in successive permit
applications to the foreign government in order to expand their research into the contested
area. OIG's review of the subjects' permit applications determined that they had changed the
requested work area in each successive permit application to the foreign government, adding
parts of the contested area and, on one application, another region as well. OIG determined
that the subjects' addition of the contested area and the other region was not unusual.
Scientists who do field work typically modify their research projects and research areas as
they learn more. The subjects applied for different research field areas in successive permit
applications to the foreign government, including parts or all of the contested area. The
foreign government decided on the appropriateness of each permit application and, at times,


                                        page 2 of 3                                  M 95-15
                                         II/T
                                            FOR M-95040015

granted permits for the research and, c
applications.
                                          I   occasions, refused portions of the subjects' permit




                                          4
OIG also considered whether the subjc:c s had misrepresented their permitted work areas in
their NSF proposals. OIG's review of t e subjects' NSF proposals showed that the subjects'
modifications of their successive NSF roposals did not misrepresent information to NSF.
The subjects' proposals indicated that t ey intended to apply to the foreign government for
permission to work in the area described or that they had already worked in the area depicted
during an earlier field season. There no substance to the allegation that the subjects'
misrepresented their permitted work arc in their NSF proposals.




from local citizenry supported the clair
in the contested area, but did not  pro.
                                          I
Allegation #3: The subjects' group a11 gedly sampled in the contested area destructively.
The other research group provided phot:o aphs to OIG that they claimed were taken after the
subjects' group completed their sarnl31 ng. The photographs did not provide sufficient
information for OIG to determine whel-e and when the pictures were taken and what, if any,
damage to the locality had occurred.        e other research group said that sworn statements
                                                the subjects did destructively sample a locality
                                                      of these sworn statements. Further, the
subjects had provided evidence that thc requested permission to work in the contested area
and that their methods were not dest                     concluded that there was insufficient
substance to support further inquiry intc               group's alleged destructive sampling in
                                          I
the contested area.

Allegation #4: OIG considered whet1 the subjects' group's work in the contested area
infringed on a graduate student's resear project. The graduate student's project, as initially
presented, was in a complementary art of research from that described by the subjects in
their permit applications. Over time, th          interests, as reflected in subsequent permit
applications, began to overlap with tho                    The subjects' initial collaborative
relationship with the student was coll                        it deteriorated. The available
evidence suggested that the subjects, \                           in their fields and who had
supported the graduate student for part                               been more collegial and
supportive in their interactions with im. OIG concluded that there was insufficient
substance to pursue this matter and thi                                    that m h e r inquiry
would provide sufficient substantive ev

This case is closed and no further actior1 bill be taken.

cc: staff scientist, AIG-0, legal, IG




                                          Iage 3 of 3
